  Peace Corps
  Office of Inspector General




        Flag of the Dominican Republic



Final Program Evaluation Report:
Peace Corps/Dominican Republic
             IG-09-03-E


                                         December 2008
Final Program Evaluation Report:
Peace Corps/Dominican Republic
                 IG-09--E




     __________________________________

                 Shelley Elbert
  Assistant Inspector General for Evaluations




              December 2008
                             EXECUTIVE SUMMARY

The Office of Inspector General (OIG) performed an evaluation of the Peace Corps
program in the Dominican Republic; the field work was conducted May 27 – June 13,
2008. The Office of Inspector General’s evaluation of the Peace Corps/Dominican
Republic program covered fiscal years 2006, 2007, and 2008. We identified successful
systems and initiatives that the post had in place; however, we also identified several
opportunities to improve the effectiveness of Peace Corps/Dominican Republic.

Peace Corps’s program in the Dominican Republic began in 1962. Over 4,600
Volunteers have served in the Dominican Republic. At the beginning of our evaluation,
there were 145 Volunteers, 36 Trainees, and 27 Peace Corps staff in the Dominican
Republic. There are five project sectors: (1) health, (2) education, (3) youth, (4)
economic development, and (5) environment.

The OIG evaluation determined that PC/Dominican Republic benefits from strong,
committed leadership and able management. Volunteers reported that they were satisfied
with their work; in interviews, Volunteers stated they have a clear understanding of their
primary goals and objectives and are meaningfully engaged in their work assignments.
Volunteers also rated their perception of safety as above average to “very safe” at their
homes and work sites.

PC/Dominican Republic has excellent training resources provided by a locally owned
company, ENTRENA, S.A. ENTRENA’s training format aligns with Peace Corps’s
competency-based training guidelines. Volunteers that the OIG interviewed rated their
training overall as effective.

PC/Dominican Republic has been proactive in its effort to standardize and document
many aspects of post operations. With programming and training operations running
effectively, now is the time for PC/Dominican Republic to concentrate on standardizing
and documenting operations to ensure that despite future staff transitions, the post will
continue to operate at a high level of effectiveness.

In 2007, PC/Dominican Republic began the revision of its five project plans in order to
support the implementation of a performance management system. With the project
plans as cornerstones, the goal of the performance management system is to integrate the
planning, monitoring, and evaluation of program operations and to measure actual project
performance and develop performance budgets.

The potential benefits of the performance management system are promising, although it
remains to be seen how well the PC/Dominican Republic Performance Management
System will align with the agency’s new Peace Corps Volunteer Reporting Management
Tool scheduled for deployment in January 2009. The post has obtained a waiver to use
its own reporting tool for FY 2009.


Final Program Evaluation Report: Peace Corps/Dominican Republic                             i
Site selection is another area in which the post is operating well but could improve. The
OIG evaluation found that not all Associate Peace corps Directors (APCDs) were using
the same site development procedures and several Volunteer Site Development forms and
Safety Checklists we reviewed were incomplete. In addition, certain criteria were
missing from the PC/Dominican Republic housing checklist and some criteria were not
sufficiently defined. Standardizing site selection criteria and housing safety and security
criteria will ensure that potential Volunteer sites and houses are properly selected on a
consistent basis.

Completion of site locator forms (SLF) was one of the few areas in which we found
problems with both current operations and lack of standards. Of 30 houses we attempted
to locate using the SLF, we successfully located five (17%). The purpose of a site locator
form is to provide directions to a person who is not familiar with the location of the
Volunteer in the event of an emergency.

Our report contains seven recommendations, which, if implemented, should strengthen
internal controls and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Dominican Republic                          ii
                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY .......................................................................................................... i

INTRODUCTION .................................................................................................................... 1

OBJECTIVES, SCOPE, AND METHODOLOGY .......................................................................... 2

EVALUATION RESULTS ........................................................................................................ 3
     PROGRAMMING ........................................................................................................................................ 3

     SITE DEVELOPMENT ................................................................................................................................. 7

     TRAINING ................................................................................................................................................. 8

     CROSS-CULTURAL UNDERSTANDING ..................................................................................................... 11

     VOLUNTEER SUPPORT ............................................................................................................................ 14

     SAFETY AND SECURITY .......................................................................................................................... 16

     SITE VISITS ............................................................................................................................................ 17

     AGENCY PERFORMANCE REPORTING ..................................................................................................... 20


POST STAFFING .................................................................................................................. 23

LIST OF RECOMMENDATIONS ............................................................................................. 24

APPENDIX A: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT

APPENDIX B: OIG COMMENTS

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT
                                   INTRODUCTION
Peace Corps’s program in the Dominican Republic began in 1962. Over 4,600
Volunteers have served in the Dominican Republic. The Government of the Dominican
Republic honored 45 years of Peace Corps service to the people of the country in
February 2007 with a reception hosted by its Vice President.

The Dominican Republic, with a population of approximately 9.5 million people, shares
the eastern two-thirds of the island of Hispaniola with Haiti. The island is often the
recipient of severe weather damage, most recently Tropical Storm Noel in the fall of
2007. Young people make up the majority of the Dominican population; the post
estimates that 54% of Dominicans are under the age of 25. Lack of access to potable
water, inadequate access to preventative health services, limited educational
opportunities, underemployment, and low wages are present. Reports of daily blackouts
and power surges caused by energy shortages are also a problem. Rising transportation,
food, and rent costs impact the cost of living for Volunteers and staff. In response to
these conditions, Volunteers have and continue to contribute to technical skills transfer
and institutional capacity building in a wide range of fields including: urban and rural
community development, youth development, conservation, environmental awareness,
community health and child survival, community economic development, water and
sanitation, and information and communications technology for education.

The United States Embassy estimates that, “100,000 U.S. citizens live in the Dominican
Republic; many are dual nationals. An important element of the relationship between the
two countries is the fact that more than one million individuals of Dominican origin
reside in the United States, most of them in the metropolitan Northeast and some in
Florida.”

As a result, Dominicans may be more acquainted with American culture than is typical of
most Peace Corps posts and fewer Dominicans may form impressions of the U.S. based
solely on interactions with Volunteers.

The Office of Inspector General (OIG) conducted a program evaluation of Peace
Corps/Dominican Republic April - September 2008. At the beginning of our review,
there were 145 Peace Corps Volunteers and 36 Peace Corps Trainees in the Dominican
Republic. The following table provides demographic data on Volunteers/Trainees by
sector, gender, and age.




Final Program Evaluation Report: Peace Corps/Dominican Republic                             1
Table 1: PC/Dominican Republic Volunteer/Trainee Demographic Data
                                                                        Percent of
                                Sector
                                                                    Volunteers/Trainees
 Community Economic Development (CED)                                      18%
 Community Environmental Development (CEDE)                                22%
 Healthy Communities and Water Safe to drink (HE)                          20%
 Information and Communication Technology for Education (ED)               24%
 Youth, Family & Community Development (YFCD)                              15%
                                                                        Percent of
                                Gender
                                                                    Volunteers/Trainees
 Female                                                                    65%
 Male                                                                      35%
                                                                        Percent of
                                  Age
                                                                    Volunteers/Trainees
 20 - 29                                                                   92%
 30 - 39                                                                    6%
 40 - 49                                                                    0%
 50 and over                                                                3%
Source: PC/Dominican Republic Data.
Note: Percentages may not total 100% due to rounding.




             OBJECTIVES, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency
in government. In February 1989, the Peace Corps/OIG was established under the
Inspector General Act as an independent entity within the Peace Corps. The Inspector
General (IG) reports directly to the Peace Corps Director. In addition, the IG reports OIG
activities to Congress semiannually.

The Evaluations Unit within the Peace Corps Office of Inspector General provides
agency senior management with independent evaluations of all management and
operations of the Peace Corps, including overseas posts and domestic offices. OIG
evaluators identify best practices and recommend program improvements to comply with
Peace Corps policies.

The Office of Inspector General Evaluations Unit announced its intent to conduct an
evaluation of Peace Corps/Dominican Republic on April 2, 2008. For post evaluations,
we use the following researchable questions to guide our work:
•   To what extent has the post developed and implemented programs intended to
    increase the capacity of host country communities to meet their own technical needs?
•   To what extent has the post implemented programs to promote cross-cultural
    understanding?
•   To what extent does training provide Volunteers the necessary knowledge, skills, and
    attitudes to integrate into the community and perform their jobs?
Final Program Evaluation Report: Peace Corps/Dominican Republic                           2
•   To what extent has the post provided adequate support and oversight to Volunteers?
•   To what extent are post resources and agency support and oversight effectively
    aligned with the post's mission and program, and agency priorities?

The evaluation team conducted the preliminary research portion of the evaluation April
2 – May 23, 2008. This included a review of agency documents provided by
headquarters and post staff and interviews with management staff representing the region
and the Center for Field Support and Applied Research (the Center). In-country
fieldwork occurred May 27 - June 13, 2008, and was comprised of interviews with post
staff in charge of programming, training, and support; the U.S. Ambassador; the U.S.
Regional Security Officer; and host country government ministry officials. In addition,
we interviewed a stratified judgmental sample of 20% of currently serving Volunteers
based on their time of service, site location, project focus, gender, age, and ethnicity. The
majority of the Volunteer interviews occurred at the Volunteers’ homes; we also
inspected these homes using post-defined site selection criteria.

This evaluation was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency. The findings and
recommendations provided in this report have been reviewed by agency stakeholders
affected by this review. The period of review for a post evaluation is one full Volunteer
cycle (typically 27 months).



                             EVALUATION RESULTS
PROGRAMMING

The United States and the Dominican Republic share an active country agreement that
was signed in 1962. The agreement lays out the major responsibilities held between the
governments of the United States and the Dominican Republic, though the language is
not specific to program sectors or Volunteer activities.

In August 2006, the post submitted to the region its plan of goals, objectives and
activities called “Embracing the Future.” In 2007, the post began revising its project
plans to form the cornerstones of a performance-based “Performance Management
System.” The revised project plans were constructed using a spreadsheet format (Excel)
to facilitate the interlinking of documents and provide a stable platform to collect data for
evaluation and reporting. There are six components to each project plan workbook:
    •   Project framework
    •   Volunteer work plan
    •   Training competencies and objectives
    •   Trainee request
    •   Volunteer Assignment Description
    •   Evaluation and reporting tool

Final Program Evaluation Report: Peace Corps/Dominican Republic                             3
The project framework separates each project goal into related objectives, each objective
into related strategies, each strategy into related work activities, and each work activity
into specific tasks. The framework was designed to function as a map and menu for
Volunteers. Volunteers will select only those tasks from the framework that are
appropriate for their sites, though they will have considerable options to choose from. As
an example, the ICT for Education project framework spans 883 rows of an Excel
spreadsheet and includes three goals, five objectives, eight strategies, 32 work activities,
and over 130 tasks for Volunteers to choose from, each with corresponding fields for
reporting results.

The complexity of the project framework is a potential challenge acknowledged by
PC/Dominican Republic staff. Whether Volunteers have the Excel skills, technical
resources, and training to successfully operate this tool has yet to be determined.

PC/Dominican Republic Volunteers provide technical assistance to interested
communities, groups, and individuals in the following five sectors:
    •   Healthy Communities and Water Safe to Drink
        The Health sector is comprised of two projects. The Healthy Communities
        project focuses on child health, maternal/reproductive health and the prevention
        of HIV/AIDS. Volunteers participate in the Peace Corps peer education program
        Escojo Mi Vida (I Choose My Life), 1 which aims to reduce maternal mortality
        and HIV and STD infection rates among youth. The Water Safe to Drink project
        works to improve rural families’ access to safe drinking water.

    •   Community Environmental Development
        The Agro-Forestry project and the Environmental Awareness Education project
        have combined into a single project plan. The project’s goals are to promote
        environmental awareness among poor Dominicans and to increase the standard of
        living through conservation of natural resources. The Brigada Verde (Green
        Brigade) Youth Environmental Clubs are a main component of the project. The
        clubs promote leadership development while focusing on environmental issues.

    •   Information and Communications Technology for Education
        The ICT for Education project works to improve local educational systems’
        teaching and learning by training teachers, students and community members in
        information technology. Due to lack of ministry staff and resources, the Special
        Education sub-sector will be phased out in 2010 with the close of service (COS)
        of the last two Volunteers.

    •   Community Economic Development
        The goals of the Community Economic Development project are to work with
        community leaders to improve their ability to organize, plan and implement
        projects, to work with existing and aspiring entrepreneurs and to improve the
        management of household finances.
1
  Seventy percent of Youth Volunteers also work with the Escojo Mi Vida peer education program as either
a primary or secondary project.

Final Program Evaluation Report: Peace Corps/Dominican Republic                                        4
    •   Youth, Family, and Community Development
        The purpose of the Youth, Family, and Community Development project is to
        empower young people to gain the knowledge and skills necessary to make
        positive life decisions and to work with community groups and organizations to
        respond to youth needs.

Of the Volunteers we interviewed, over 75% (26 of 33) reported that they feel their
activities relate to their primary project objectives “above average” or “very well.”

According to the 2006 Biennial Volunteer Survey, Volunteers in the Dominican Republic
on average work more hours per week on their primary assignments than the global
average. Regarding their primary project activities, Volunteers rated themselves
significantly higher than global averages at:
    •   Meeting their primary objectives.
    •   Building local capacity for sustainability.
    •   Including local people in planning and implementing activities.
    •   Complementing other local development activities.
    •   Receiving support from in-country staff and resources.

Dominican government officials have not been engaged as project partners, except in
the education sector.

PC/Dominican Republic maintains positive ties with Dominican ministries and officials
but most are not engaged as project partners. Fifty percent (16 of 32) of Volunteer
respondents reported that they never interact with host country government officials.

Two exceptions are the Secretary of Education and the Dominican Office of the First
Lady. The Secretary of Education signed a memorandum of understanding with
PC/Dominican Republic in 2005 and ministry officials work directly with PC/Dominican
Republic Education Volunteers. The post also has a new partnership with the Dominican
Office of the First Lady; six education Volunteers were placed in computing centers
funded by her office.

Fifty-five percent of Volunteer respondents reported daily interactions with non-
governmental organizations or other project partners.

Not all Volunteers were assigned multiple counterparts and/or community project
partners.

Despite the revised PC/Dominican Republic site development process that requires two
community partners to attend partner day activities during pre-service training, the
project plans for Community Environmental Development, Healthy Communities and
Water Safe to Drink, and Information and Communication Technology for Education do
not require multiple counterparts and/or community project partners. However, the
Youth, Family, and Community Development project plan and the Community Economic

Final Program Evaluation Report: Peace Corps/Dominican Republic                          5
Development project plan do provide that more than one counterpart or community
project partner be assigned to a Volunteer. The 2007 Youth, Family, and Community
Development project plan states, “In addition the PCV will also have a second project
partner or community counterpart…” The 2008 Community Economic Development
project plan states, “CED PCVs will be assigned to 2 - 3 project partners from
representative groups per community.”

The Center’s 2007 review of the Community Economic Development project
recommended multiple project partner assignments:
        Given that many partners are probably engaged in a variety of activities,
        some of which may not have anything directly to do with Volunteers or
        the project, it is suggested that Volunteers be assigned to more than one
        project partner, as appropriate…

Volunteers assigned to only one counterpart encounter a significant challenge when that
counterpart is ineffective. In interviews, several Volunteers reported ineffective working
relationships with an assigned counterpart. These Volunteers also reported challenges
identifying and transitioning to a more appropriate counterpart.

In order to increase the capacity of Volunteers to build appropriate and effective
partnerships, we encourage PC/Dominican Republic to assign multiple project partners to
Volunteers in all sectors. Establishing multiple counterpart “options” at each site and
instilling Trainees’ expectations to work with multiple project partners helps to address
this challenge.

The Volunteer Assignment Descriptions (VADs) were accurate and well-balanced.

Seventy-three percent (22 of 30) of Volunteers responding to how well their VAD
described their activities selected “average” to “very well.”

In 2007, the VADs were integrated into the performance-based project design and key
sections of the VADs are now informed directly from the project plans. The interlinked
VADs should effectively manage the expectations of prospective Volunteers by more
closely aligning with the project design.

Our review of the VADs found that they accurately summarized information contained in
the project plans and activities that the Volunteers would perform as part of their daily
activities.

Small Project Assistance and Peace Corps Partnership Project grants addressed
Dominican communities’ underserved sectors.

The Small Project Assistance (SPA) grants and the Peace Corps Partnership Program
(PCPP) help Volunteers build local capacity in vital areas including introducing
community members to the process of grant writing.


Final Program Evaluation Report: Peace Corps/Dominican Republic                          6
In FY 2007, Volunteers completed 11 SPA projects and 24 PCPP projects. Latrine
construction was the most common project, followed by improved cooking stoves and
clean water improvements. Other projects focused on youth development and
educational needs.

As the United Nations Development Programme’s 2006 Human Development Report
cites primary health and basic education as the two most underserved sectors in the
Dominican Republic, grant projects implemented by Volunteers appear to address these
needs. Therefore, we found that Volunteers were appropriately using SPA and PCPP
grants.

SITE DEVELOPMENT

The post’s site development and selection procedures were not in alignment.

A Peace Corps Safety and Security Officer’s (PCSSO) visit in 2007 found that the post’s
Site Development Form and Safety Checklist lacked the necessary criteria to determine
the suitability of a Volunteer’s site. The 2007 PCSSO report cited the following “Site
Development Procedural Guidance” from the Volunteer Safety Council:

        Site selection should be based on established safety and security criteria
        that reflect consideration of, among other things, any relevant site history;
        access to medical, banking, postal, and other essential services;
        availability of communication, transportation, and markets; different
        housing options and living arrangements; and other Volunteer support
        needs.

We reviewed paper files for 16 Volunteers who we planned to visit and found that only
one had a fully completed Site Development Form and Safety Checklist. In our
interviews with Associate Peace Corps Directors (APCDs), we discovered that they used
disparate site development procedures.

At the time of this evaluation, PC/Dominican Republic had begun implementing standard
site selection procedures for all sectors. The Programming and Training Officer (PTO)
reported working with APCDs to redevelop the process and we were provided a sample
copy of the new process that included the following components:
    •   Site Selection Process Guide
    •   Community Volunteer Request Form
    •   Community Meeting Attendance List
    •   Project Site Development Initial Report
    •   Minimum Volunteer Housing Checklist
    •   Project Site Development Form And Safety Checklist

PC/Dominican Republic created the Project Site Development Initial Report to identify
additional Volunteer support needs: population and access, communications, water,

Final Program Evaluation Report: Peace Corps/Dominican Republic                         7
medical facilities, electricity and intranet services, housing, and transportation. In
addition to the new site selection internal controls, the post plans to train APCDs to enter
data into Volunteer Information Database Application while in the field.

The post’s implementation of this comprehensive process should enable the post to meet
agency criteria and reduce the likelihood of unsafe or inappropriate Volunteer site
selection.


                  We recommend:

             1. That the PTO ensure APCDs comply with the new site
                selection procedures.


Volunteers reported that they were satisfied with their project sites.

Fifty-nine percent of the Volunteers whom we interviewed (20 of 34) reported that they
were “very satisfied” (the highest rating) with PC/Dominican Republic’s decision to
select their project site. Overall, 94% (32 of 34) of the Volunteers whom we interviewed
reported that they were satisfied with PC/Dominican Republic’s decision to select their
project site.

PC/Dominican Republic is effective at placing Volunteers in communities appropriate for
meeting the goals of the Peace Corps. This is supported by the 2006 Biennial Volunteer
survey which reported that host country colleagues and work sites in the Dominican
Republic were better prepared for their Volunteers' arrival than global averages.

TRAINING

Since 1982, PC/Dominican Republic has outsourced its training program to a private
Dominican Republic organization, ENTRENA, S.A. 2 ENTRENA is a local organization
that has the capacity to operate more efficiently and affordably than its competitors. Both
the owner and the training director are former Volunteers with many years of
development experience in the Dominican Republic.

ENTRENA’s services include pre-service trainings (PST), in-service trainings (IST) at
three months and twelve months and language in-service trainings. The 10-week PST
begins with three weeks of center-based core training. Trainees live with their first host
families during this time. Core training is followed by five weeks of community-based
training (CBT) that focuses on technical and language skills. During CBT Trainees live
with new host families. In the ninth week, Trainees return to the training center to
receive their assignments and transition to a five-day stay at their project sites. Swearing-
in is held in week ten following final language assessments and competency exams.
2
  PC/Dominican Republic is one of only two posts in the agency to use a contractor for its training needs,
the other is PC/Paraguay.

Final Program Evaluation Report: Peace Corps/Dominican Republic                                              8
In 2005, PC/Dominican Republic compared the costs of ENTRENA’s contracted services
to comparable in-house services and found the contracted services to cost slightly more.
The Inter-America and Pacific Region supports the ENTRENA contract due to a high
quality of training without significantly increased costs. Both regional and post staff
reported that they are very satisfied with the quality of ENTRENA’s training

ENTRENA’s training format aligns with Peace Corps’s competency-based training
guidelines.

PC/Dominican Republic transitioned to a competency and learning objective training
format in January 2007. New agency training guidelines were recommended by the
Director of the Center for Field Studies and Applied Research in a 2006 memorandum
and approved by the agency Director. In part, the memorandum stated the following:

           First, establish a consistent definition of competency…Second, learning
           objectives during training are competency indicators…Finally, learning
           results will be measured…

During pre-service training, Trainees in all sectors learn five core competencies that are
divided into 58 associated learning objectives. Core competencies are clusters of
knowledge, skills, and attitudes related to major functions all Volunteers perform. They
are the same for all PC/Dominican Republic Trainees. Learning objectives are
measurable indicators of knowledge, skills, and attitudes.

Technical competencies are similarly grouped into competencies with associated learning
objectives. Additionally, PST and IST curricula and schedules align with PC/Dominican
Republic’s established core competencies and learning objectives. In 2007, the Center’s
Training Status Report (TSR) feedback stated, “PC/Dominican Republic's core
competencies and learning objectives are strong, clear, and well crafted.”

ENTRENA measures learning results using criterion-referenced testing and Trainee self-
assessments, both implemented in 2007. Criterion-referenced testing employs written
tests, competency stations, and qualitative assessments to measure learning.
At the end of the most recent PST in May 2008:
           •    All Trainees achieved the required 80% to pass the criterion-referenced
                testing. 3
           •    All Trainees achieved the required 100% to pass the safety and security exam,
                though 23 Trainees (64%) failed the initial test and passed the second time.
           •    Except for one, all Trainees achieved qualifying language criteria. The one
                Trainee was sworn-in with a provision for continued language instruction.

Trainee self-assessments are administered before and after training as an additional tool
to establish core competency learning results. Upon entering the most recent PST in
February 2008, the average score of a Trainee’s ability to meet core training objectives
3
    Four Trainees failed one of their tests initially. They subsequently retook and passed their tests.

Final Program Evaluation Report: Peace Corps/Dominican Republic                                           9
was 2.36. 4 At the end of training in May 2008, the average Trainee’s score of meeting
core training objectives was 4.61; ENTRENA aims for a minimum score of 4.0.

Our review found that PC/Dominican Republic’s training program clearly aligns with
agency guidelines. This is supported by the Center Training Design Specialist’s
comment in the TSR 2007 Feedback, “PC/Dominican Republic is commended for the
changes in training design that led to more focused training, a reduction of training time
by one week, and more open communication between staff and trainees regarding
qualification for service.”

Pre-service training was rated as effective by Volunteers.

Ninety-four percent (32 of 34) of the Volunteers we interviewed rated PST training as
“moderately” to “very effective” (see Table 2) for both safety and security and medical
and health. Ninety-one percent of the Volunteers we interviewed rated the cross-culture
training as “moderately” to “very effective,” and 85% (29 of 34) of the Volunteers we
interviewed rated the language training as “moderately” to “very effective.” The most
common rating for the effectiveness of each of these training areas was “very effective.”

Table 2: Volunteers Rated PST Effectiveness1
                                          Below                              Above             Very
         Area          Ineffective                      Moderately
                                         average                            average          effective
    Language                6%             9%                21%              26%              38%
    Culture                 0%             9%                24%              29%              38%
    Safety/Security         3%              3%               26%              26%              41%
    Medical/Health          0%             6%                15%              35%              44%
    Technical               0%             21%               32%              26%              21%
Source: OIG Volunteer Interviews.
1
  N= 34.



The effectiveness of technical training is a challenge for Peace Corps posts, including
PC/Dominican Republic. As shown in the above table, Volunteers rated the effectiveness
of technical training lower than other training areas. In the 2006 Biennial Volunteer
Survey, on a scale of 1 to 5 (1= not at all effective, 5= very effective), Volunteers in the
Dominican Republic rated training to “perform technical aspects of your work” at 3.3,
which surpassed the global average rating of 2.9.

Despite its achievements, ENTRENA recognizes the need to improve the relevance of
technical training for all Volunteers. ENTRENA’s May 2008 End of Training Report
recommends, “…that all competencies and learning objectives are revisited and modified
according to the realities of PCV work.”



4
 The self-assessment tool uses a 1 to 5 scale (1= I have never heard of the topic, 5= I feel confident in the
subject and could facilitate my co-workers).

Final Program Evaluation Report: Peace Corps/Dominican Republic                                            10
We encourage PC/Dominican Republic to continue to strengthen communication with
ENTRENA in order that improvements in technical training effectiveness can be
achieved.


                We recommend:

            2. That the post invite the ENTRENA training director to
               staff meetings to augment collaboration and maximize
               training improvement opportunities.


Not all Volunteers’ counterparts attended counterpart session during in-service
training.

Five of the Volunteers we interviewed reported that they did not participate in the
required counterpart sessions during in-service training (IST). These five Volunteers
provided one of two explanations: (1) the Volunteer’s counterpart chose not to attend the
sessions, (2) the Volunteer arrived at IST with a “substitute” counterpart who was not
previously involved in their project.

In-service training was negatively impacted for these Volunteers as they and their
counterparts missed an important team-building opportunity.

Due to the anecdotal data we have on this issue, we encourage the post to review
counterpart participation during IST to determine if this problem is more widespread and
an area in need of improvement.


                We recommend:

                3. That the post assess IST Volunteer guidance to
                   ensure counterpart participation during IST.


CROSS-CULTURAL UNDERSTANDING

The second of Peace Corps’ three goals is to help promote a better understanding of
Americans on the part of the people served. Cultural exchange is an integral part of the
transfer of knowledge and skills that occurs both between host-country community
partners and Volunteers.

Volunteers most often cited work styles among Dominicans and the role of women as
areas of cross cultural understanding that were hardest for them to obtain. When asked to
describe the easiest ways for them to obtain cross cultural understanding,
Volunteers most often cited practicing Spanish, often while sharing meals and

Final Program Evaluation Report: Peace Corps/Dominican Republic                        11
socializing with their host partners and members of their community. Eighty-five percent
(29 of 34) of Volunteers we interviewed rated their understanding of cross-cultural issues
as above average.

APCDs emphasized that training Volunteers to exhibit culturally appropriate behaviors
and actions is necessary for their successful integration into a community as well as
helping ensure their personal safety.

PC/Dominican Republic has incorporated agency best practices into its cross-cultural
training.

PC/Dominican Republic uses several different training methods in its cross cultural
training to help ensure that Volunteers gain cross-cultural understanding, including
suggestions from Indicators of a High Performance Post and the Peace Corps Program
and Training Guidelines Booklet 3: How to Integrate Second and Third Goals into
Programming and Training.

According to senior post staff, cross cultural training during PST is effective because
Trainees have opportunities to learn and practice new ways of communicating with
members of the host families with whom they live. Some examples from the post’s
curriculum used for teaching culturally appropriate behavior are as follows:
    •   Trainees learn to present in Spanish their position as a Volunteer, in both social
        and professional situations, and converse about their family and interests.
    •   Trainees learn behaviors that are expected in the event of the death, marriage, or
        birth of a community member.
    •   Volunteers learn to identify behaviors and actions, perceptions of U.S. nationals,
        and differences in gender roles between the U.S. and Dominican Republic
        that could jeopardize a Volunteers' personal security.

The tables below list selected practices from Indicators of a High Performance Post and
the Peace Corps Program and Training Guidelines Booklet 3: How to Integrate Second
and Third Goals into Programming and Training that we observed in PC/Dominican
Republic. These training practices cover design, implementation, management, and
evaluation.




Final Program Evaluation Report: Peace Corps/Dominican Republic                           12
Table 3: Training Practices from Indicators of a High Performance Used by
PC/Dominican Republic
                                                                PC/Dominican Republic Training
   Selected Indicators of a High Performance Post
                                                                   Activity That Addresses This
 Whether or not the post has a year round-training center,     PC/Dominican Republic training
 there is a staff member who functions in a training           contract is managed by a training
 management position and has year-round responsibility         director, in cooperation with the PTO
 for overseeing and directing PST, IST, training staff         and APCDs.
 development, and other training planning, activities, and
 administrative support.
 Strategies are employed to support both continuity and        Training director and PTO provided
 change in training. The learning and experience gained        materials that support ongoing
 from one year are successfully applied to the next, and       solicitation of feedback and input from
 new ideas and initiatives are actively solicited for each     Volunteers regarding how to improve
 new training plan and cycle.                                  training and what topics would be most
                                                               useful for Volunteers.
 Trainees have effective means of participating in,            Training Director and PTO provided
 evaluating, and influencing their own training.               materials that demonstrate ongoing
                                                               feedback is solicited from Volunteers
                                                               regarding quality and relevance of
                                                               training.
 In addition to the principal components of technical,         PST sessions include stress
 language, cross-culture, safety/security, and health, PST     management and Peace Corps rules and
 and IST designs include appropriate components and            regulations.
 activities to treat such topics as policies and procedures,
 personal responsibility and support techniques, problem-
 solving, peer support, and strategies for dealing with
 stress.
 The Peace Corps holds training workshops that serve as        PC/Dominican Republic holds
 both a Peace Corps contribution to the host country           conferences attended by host country
 community (e.g., women in development conference for          nationals such Escojo Mi Vida and
 school girls or technical IST including counterparts), and    Brigada Verde.
 an opportunity for the Peace Corps to bring together its
 own Volunteers, staff, and other groups and call attention
 to and improve its activities in-country.
Source: OIG analysis of PC/Dominican Republic data.




Final Program Evaluation Report: Peace Corps/Dominican Republic                                       13
Table 4: Programming and Training Booklet 3 Training Practices Used by
PC/Dominican Republic
                                                                 PC/Dominican Republic Training
 Selected Programming and Training Booklet 3 Ideas
                                                                    Activity That Addresses This
 Include host-country agency partners and community            Training curriculum includes project
 partners in the planning and implementation of PST and        partner participation in PST and IST.
 IST.
 Develop and implement a strong and on-going language          PC/Dominican Republic training
 training program that stresses that language acquisition is   competencies include various cross-
 key to cross-cultural sharing.                                cultural communication language
                                                               lessons.
 Identify competencies for both project and living skills      Training competencies identify
 needed to carry out the projects.                             technical and cultural skills.
 Evaluate the effectiveness of training annually with          Effectiveness of training is reviewed
 programmers and trainers. Review competencies for both        more than once per year, as evidenced
 technical skills and living skills.                           by criterion reference tools and training
                                                               report summaries submitted by training
                                                               director.
Source: OIG analysis of PC/Dominican Republic data.



We observed that PC/Dominican Republic and ENTRENA were working to continuously
improve training delivery to its Volunteers to help ensure that they have the skills
necessary to successfully integrate into their communities.

VOLUNTEER SUPPORT

Volunteers in the Dominican Republic reported that they were satisfied with the support
that they received from post staff as indicated by information provided by 34 Volunteers
interviewed; this was supported by PC/Dominican Republic Volunteer responses to the
2006 Peace Corps Volunteer Survey. Volunteers also reported that they were satisfied
with the support received from their APCDs.

The following feedback collected from post staff about Volunteer support echoes the
same message provided by Volunteers:
        •   Medical support is strong.
        •   Support from the post’s administrative office is improving.
        •   Safety and security support is in a period of transition.
        •   Communications are timely and ongoing, but the resolution of matters of
            concern to Volunteers could be better disseminated.
        •   Issues of health and safety that emerge are integrated into training and
            communications in a timely manner.




Final Program Evaluation Report: Peace Corps/Dominican Republic                                        14
Some Volunteers reported that they were not informed on the resolution of issues
addressed during Volunteer Advisory Council meetings.

The post regularly disseminated information to Volunteers. For example, post staff email
a notification to Volunteers twice per month on topics such as staffing
updates, training, medical, and policy notifications. A trimestral magazine written by
Volunteers for the purpose of enhancing communication among Volunteers is also
distributed. Additionally, post management shares information with and includes
Volunteers in post decision-making through the Volunteer Advisory Council (VAC).
However, some Volunteers whom we interviewed stated that they were not sure whether
issues or concerns raised in prior VAC meetings had been resolved.

Post management and Volunteers described a VAC process whereby a
regional representative (a Volunteer) collects questions and concerns from Volunteers via
a regional VAC meeting or informally, and presents these in a post-wide VAC meeting
attended by post senior management. 5 Issues are considered and the ones chosen are
prioritized by VAC attendees. Next, issues chosen are assigned to a post staff or task
group. Finally, a status report of all issues raised is disseminated at both a subsequent
post-wide and regional VAC meeting. Volunteers we interviewed rated the effectiveness
of this process moderately effective, on average.

We reviewed VAC meeting minutes which clearly indicate the status of the post’s efforts
to address issues raised by Volunteers. Although PC/Dominican Republic appears to
have a process for addressing Volunteer concerns and a process for reporting the status of
these concerns, the post should be aware that not all Volunteers have received the follow-
up information of how the post is addressing their concerns.

The post has improved its support to Volunteers.

Recent initiatives by the post have resulted in additional improvements in the area of
Volunteer support. The following table provides a brief description of some of the
improvements and planned improvements.




5
    These meetings are typically held quarterly.

Final Program Evaluation Report: Peace Corps/Dominican Republic                          15
Table 5: Summary of Volunteer Support Improvements
    Volunteer Support
                                       Improvement Description
      Improvements
Post Re-organized and             RPCVLs will help perform housing checks and conduct site
Recruited Five Regional Peace     visits, serve as the regional emergency coordinator, and
Corps Volunteer Leaders           assist with site development, among other things.
Medical Support Is Rated          Peace Corps Medical Officers received the highest rating
Strongest by Volunteers           among all post staff—“highly supportive”—in Volunteer
                                  interviews. Dengue, a viral disease transmitted by
                                  mosquitoes, has risen worldwide particularly due to a longer
                                  rain season this past year, according to Peace Corps’ Chief,
                                  Epidemiology and Surveillance. Emphasis on preventative
                                  measures such as use of long-sleeved clothing, insect
                                  repellants, and bed nets is reflected in PC/Dominican
                                  Republic’s training materials and newsletters, as expected.
More Timely Reimbursement         The Administrative Unit reduced its service window hours
Claims Processing                 in order for staff to process Volunteers’ reimbursement
                                  claims in a timelier manner.
Proposed Living Allowance         Post proposes to reduce the number of living allowance cost
Adjustments Pending Approval      categories from six to four, and requests a 17% living
                                  allowance increase. According to staff, this change would
                                  increase the efficiency of living allowance payments, and
                                  more closely reflect food, rent and transportation prices in-
                                  country. This request is still pending approval by regional
                                  management.
Source: OIG analysis.



SAFETY AND SECURITY

Volunteers we interviewed rated their perception of how safe they felt on a 1 to 5 scale,
from “unsafe” (rated a 1) to “very safe” (rated a 5). All Volunteers rated their home and
work sites “average safe” or “very safe.” They also reported that they perceive their
safety level as average when they travel and visit the PC/Dominican Republic office.

Forty-one percent (14 of 34) of Volunteers we interviewed indicated that they had been
the victim of a crime during their service; this is comparable to a global average of 38%,
according to results of the 2006 Peace Corps Volunteer Survey. The majority of crimes
reported by Volunteers in 2007 were theft, burglary with the Volunteer present or absent,
and robberies. When comparing PC/Dominican Republic to 2007 subregion averages,
PC/Dominican Republic Volunteers reported a higher percentage of burglaries while a
Volunteer was physically present, but a lower percentage of robbery and thefts. Of the
three rapes that were reported in the Central American subregion in 2007, PC/Dominican
Republic reported one. The Safety and Security Coordinator (SSC) reported a need to
emphasize security training regarding personal safety issues, specifically burglaries and
dating.



Final Program Evaluation Report: Peace Corps/Dominican Republic                                   16
The posts’ training curriculum reflects that all Volunteers are trained to report all crimes
experienced by Volunteers. However, of five Volunteers who reported to us that they
had been a victim of a crime, only two told us that they would report any crime if one
were to occur; while the other three said that they would only report a crime if it were a
major crime. Also of note, a few Volunteers emphasized they were satisfied with the
posts’ handling of a crime they reported in the past.

Volunteers we interviewed rated the level of support received from their Safety and
Security Coordinator (SSC) as “above average.” Post-specific data from the 2006 Peace
Corps Volunteer Survey showed that of post staff, Volunteers felt most comfortable
discussing issues with their SSC. Also, data showed that the SSC received a high rating
for responsiveness to issues. However, caution should be exercised when interpreting
this due to turnover in this position—three different individuals have served in this
position in the past two years.

SITE VISITS

Eighty-five percent of Volunteers rated their APCD “moderately” to “highly supportive”
in Volunteer interviews. Eighty-six percent (25 of 29) of Volunteers we interviewed
reported that the number of site visits that they have received were adequate, and 90%
(28 of 31 respondents) rated site visits “moderately effective” or higher.

We reported earlier that program staff were working to improve the site selection process
by ensuring a more consistent process is used by all post staff. However, we found that
improvements could be made to further strengthen PC/Dominican Republic’s conduct
and tracking of housing inspections during site visits. Additionally, increased
accountability regarding critical sections of the site locator form will help ensure
Volunteers are located quickly in the event of an emergency.

The post’s housing checklist and housing policy were incomplete.

Certain housing safety and security criteria were missing from the PC/Dominican
Republic housing checklist and some criteria were not sufficiently defined. We found
that during our observations of Volunteer housing, we (1) were unable to determine
whether Volunteer housing met certain safety and security guidelines, and we (2)
overlooked certain safety and security features as a result. Our finding is related to a
prior PCSSO recommendation that PC/Dominican Republic’s housing inspection system
should include security criteria and written procedures. 6

The post has developed housing policy guidelines and a housing checklist that staff use to
select adequate housing and conduct site visits of Volunteer housing. However, certain

6
  In a report dated September 10, 2007, the PCSSO recommended that the post should, “establish a system
to ensure that all [Volunteer] houses are inspected to meet Post’s security criteria, and that documentation
exists to support that an inspection has occurred.” Further, the PCSSO described this should include,
“written procedures, a record of inspections, and a list of [Volunteers] whose houses have been inspected.”


Final Program Evaluation Report: Peace Corps/Dominican Republic                                           17
criteria on the checklist are not sufficiently defined. For example, we were unable to
determine whether the location of Volunteer housing was "not next to or nearby bars,
nightclubs, or public hang out/party areas" or was “flood prone” without further
definition. We overlooked additional criteria—installation of screens over windows,
electricity and gas, and animals—during our observations of Volunteer housing that is
discussed in the housing policy but absent from the checklist. It was clear from
interviews with APCDs and the SSC that these items were not consistently observed
during housing inspections.


                We recommend:

                4. That the post a) define each Volunteer housing
                   standard in order that the presence or absence of
                   each may be accurately assessed, and b) include all
                   housing policy standards in the housing checklist.


Some site locator forms lacked sufficient information to locate Volunteers’ homes.

According to MS 270, the country director is responsible for establishing procedures to
ensure that site locator forms are revised and updated when necessary. A site locator
form should include a map and directions to their site, and other relevant information. Of
the 30 houses we attempted to locate using the SLF, we successfully located 17% (5 of
30).

In general, SLF maps were computer-generated or hand drawn, and contained such
details as the Volunteer's home and work sites, the location of a neighbor or community
partner, and point of entry into their community such as bus stop or highway exit, as
instructed. The use of reference points such as schools, forks in the road, and "colmados"
(local markets) in drawings and written instructions was often confusing with no further
information to differentiate one school from another. Further, on more than one
occasion, a map led us to a Volunteer’s former living accommodation.

According to post staff, one reason these may be difficult to follow is Volunteers develop
a SLF and map to their home and work site within their first days in their new site.
Program and support staff also reported that efforts are made to ensure that a SLF is on
file for each Volunteer, but our review revealed that their accuracy was not systematically
confirmed. In follow-up conversations with both the SSC and the country director, we
learned that Volunteers will be instructed to update their site locator forms when they
visit the Peace Corps office. In particular, they will be asked to update their SLF during
medical or other office visits.

We believe that there are two critical fields not listed on the PC/Dominican Republic Site
Locator Form: (1) the date the SLF was completed by the PCV, and (2) regional
Emergency Coordinator contact information. With no date on the SLF, it is unknown

Final Program Evaluation Report: Peace Corps/Dominican Republic                          18
whether the information has been verified. Also, we believe including regional
emergency coordinator contact information on the SLF will be useful in the future to
know whom each Volunteer should contact, or be contacted by, for emergency
instructions.

We completed a larger study of this issue January 2007 - January 2008. 7 As a part of this
study, the OIG reviewed 160 site locator forms in 10 Peace Corps countries. We found
that site locator forms lacked essential elements and did not always provide enough
information to locate Volunteers in a timely manner. Similar to PC/Dominican Republic,
we found that even though a) posts relied on Volunteers to accurately fill out and submit
the site locator forms, and b) most posts visited required a staff member to review the
SLF; this process still did not result in accuracy or completeness. We also found that
holding Peace Corps staff accountable for verifying the form’s most critical elements
may improve the accuracy and completeness of the most important sections of the SLF.


                   We recommend:

                   5. That the country director require APCDs to review
                      the accuracy and completeness of the most critical
                      sections of site locator forms.


Emergency Planning is improving.

We found that the post’s Emergency Action Plan showed that it was generally well
prepared for an emergency. Additionally, of Volunteers we interviewed, 59% (20 of 34)
rated their level of familiarity with the PC/Dominican Republic Emergency Action Plan
(EAP) as “above average” or higher. Alternatively, only two Volunteers rated their
familiarity with the EAP as “below average.”

We also asked Volunteers to describe their responsibilities in case of an emergency, as
well as where they are expected to meet (i.e., consolidate) in case of an emergency. In
general, Volunteers sufficiently described instructions for following the post's process for
stand fast (i.e., remain in their site), consolidation, and evacuation.

The post most recently tested their emergency communication system during a stand fast
initiated as a result of the Dominican Republic presidential election held in May 2008.
All Volunteers were instructed to remain in their site or current location during the period
of May 14 – 19, 2008. The message to stand fast was disseminated to Volunteers via an
email message, text message, and via PC/Dominican Republic emergency coordinators.




7
    See Program Evaluation Report: Volunteer Safety and Security, IG-08-13-E.

Final Program Evaluation Report: Peace Corps/Dominican Republic                          19
Table 6: Comparison of Emergency Communication Response Rates
                                        Percent Response Rate by Time Elapsed
            Time Elapsed
                                        October 2004              March 2008
               3 hours                73% (120 of 176)          39% (65 of 167)
               6 hours                85% (149 of 176)         70% (117 of 167)
              24 hours                91% (160 of 176)         90% (151 of 167)
              48 hours                98% (173 of 176)         98% (164 of 167)
Source: PC/Dominican Republic data.



According to data provided by the post, in March 2008 PC/Dominican Republic had met
its goal of reaching 90% of Volunteers within 24 hours, but did not reach its goal of
reaching all Volunteers within 48 hours. It took slightly more than three days to reach all
167 Volunteers. This test is an improvement since our October 2004 observation of
PC/Dominican Republic’s emergency communication system. 8 Then, it took nearly five
days (117 hours) to contact all Volunteers and Trainees.

Post staff have developed a new operational procedure (a list of difficult to reach
Volunteers) with the goal of reaching Volunteers in less time. For example, Volunteers
that have weak or no cellular service at their project sites will be contacted at initiation of
an event or test, such as by sending a project partner or a post driver to reach them in-
person. Previously, this would occur many hours after initiation of an emergency
communication system event. Post staff are hopeful all Volunteers will be reached in a
more timely manner during the next emergency (or test) as a result.

Three individuals have served as Safety and Security Coordinator for PC/Dominican
Republic in the past two years. It will be important that the post establishes new
relationships with embassy security officials and to maintain consistent communication
regarding security matters.

The SSC is currently reviewing contracts for each consolidation point to ensure that
sufficient food and water supplies will be made available to Volunteers in an
emergency. 9 Completion of this task prior to hurricane season (June to October) would
have been ideal. However, it is assuring that the new SSC has made review of these
contracts a priority and we look forward to a status update on the results of this review.

AGENCY PERFORMANCE REPORTING

Volunteers routinely report on the individuals they assist and service providers they train
in trimester or other reports, which is summarized by post staff and submitted to
headquarters. Consistency of this information is critical as it is reported to the Congress
annually. Two indicators reported by Volunteers and presented to the Congress in the
Peace Corps annual Performance and Accountability Report are: (1) individuals assisted
by Volunteers and (2) service providers trained by Volunteers.

8
    See Program Evaluation of PC/Dominican Republic, IG-05-11-E.
9
    PC/Dominican Republic uses hotels for their consolidation points.

Final Program Evaluation Report: Peace Corps/Dominican Republic                             20
Peace Corps plans to deploy a reporting tool for Volunteers in January 2009 for all posts
to more efficiently and effectively manage the collection, use, and reporting of Volunteer
project data. However, a waiver would allow some posts to continue to use their own
reporting tool. It is unclear whether the two indicators listed above would be accurately
and consistently reported to the Congress under this new system.

Volunteers have not received standardized training on reporting project data.

PC/Dominican Republic senior post managers described—and Volunteers we
interviewed confirmed—that Volunteers had not received satisfactory training regarding
how to accurately fill out project trimester reports. The reason provided was that the post
was revising its project plans and corresponding reporting tools to simplify data
collection and ensure accuracy of data collected by Volunteers. The scope of our
evaluation did not include a review of Volunteers’ trimester reports.

One-third of Volunteers (11 of 33) felt the information they reported in their trimester
reports is “highly reliable” and two (6%) felt that their reporting is “unreliable.”
Concrete examples of exact counts of unique beneficiaries were provided, such as
students who regularly attend their English class. However, illustrative examples of the
challenges Volunteers face in counting individuals assisted included asking an illiterate
community member to write his name on an attendance sheet or guessing the number of
unique beneficiaries who listened to a lecture aired on public media such as television or
radio. Volunteers concluded they must use estimation in these cases which limits the
accuracy of this information.

The reliability of Volunteer-reported information—particularly information reported to
the Congress—is dependent on the training and supervision they receive to complete
trimester reports in PC/Dominican Republic. We recently completed an evaluation of
Peace Corps/Albania and found that without proper training and supervision, the
collection task may be interpreted differently among Volunteers.


                We recommend:

                6. That the post strengthen its training program so
                   that all Volunteers accurately complete trimester
                   reports in their new format.


It was unclear whether posts would consistently report project data using new
Volunteer reporting tool.

The purpose of the agency-wide Volunteer reporting tool is to better enable posts to
produce summary progress status reports, and it is viewed by the agency as vital for
integrating and reflecting Volunteers’ work in performance reporting to Congress and the
American public. A pilot test of the Peace Corps Volunteer Reports Management

Final Program Evaluation Report: Peace Corps/Dominican Republic                          21
(PCVRM) tool was conducted at eight overseas posts, and included assessing the costs
and benefits of using the tool compared to not using it. 10 Field staff that tested the pilot
tool reported they spent less time processing and preparing Volunteer and annual reports,
they managed Volunteer reports more effectively, and their ability to aggregate data on
an annual basis was improved.

However, this pilot also does not appear to address reliability of data collected by
Volunteers, nor limitations. In addition, posts such as PC/Dominican Republic are
allowed to apply for a waiver in order to continue to use their own tool for Volunteer
project reporting. 11 PC/Dominican Republic staff reported they will seek a waiver so
they may continue to use the Volunteer reporting tool that post has been working to
develop as part of its performance management system.

In August 2008, we recommended that the Center for Field Research and Assistance, the
EMA regional director, and the PC/Albania country director assure that performance
information (1) is useful to management, (2) is subject to verification and validation, and
(3) considers both costs and benefits. Further, as these reporting tools evolve, a more
concerted effort to coordinate data collection efforts is necessary to assure that accurate,
consistent and reliable data is reported.


                  We recommend:

                  7. That the region establish and disseminate standard
                     guidance and training for use by post staff and
                     Volunteers to ensure that performance data is
                     consistently collected and reported.




10
   The PCVRM was pilot tested by the following eight posts: Belize, Bolivia, Eastern Caribbean, Ecuador,
Paraguay, South Africa, Swaziland, and Tonga. Costs were expressed in hours of field staff time dedicated
to Volunteer reporting tasks.
11
   Posts that are already using reporting systems that meet or exceed the data requirements of the Volunteer
Reporting Tool may seek a waiver in FY09, provided they report on certain required year end data,
according to a Regional Director’s Memorandum (July 24, 2008).

Final Program Evaluation Report: Peace Corps/Dominican Republic                                          22
                                   POST STAFFING
At the time of our field visit, PC/Dominican Republic had 28 staff positions, one of
which was vacant. The positions included three U.S. direct hire employees (USDH), six
foreign service nationals (FSN), and 14 personal services contractors (PSC). We
interviewed 14 staff.

Volunteers in the Dominican Republic are satisfied with the support they receive from
post staff as indicated by information provided by 34 Volunteers we interviewed during
June 2008.

                          PC/Dominican Republic Positions
                       Position                                    Status
Country Director                                    USDH
Programming and Training Officer                    USDH
APCD/Small Enterprise Development                   USDH
APCD/Education                                      FSN
APCD/Health                                         FSN
APCD/Natural Resources                              FSN
APCD/Youth                                          PSC
Program Support and Grants Coordinator              PSC
Program Assistant                                   PSC
Program Assistant                                   PSC
Program Assistant                                   PSC
Administrative Officer                              FSN
Administrative Assistant                            FSN
Cashier                                             FSN
Financial Assistant                                 PSC
Administrative Assistant                            PSC
Reception (2)                                       PSC
Driver (2)                                          PSC
Janitor (2)                                         PSC
PCMO (2)                                            PSC
Medical Secretary and Staff Development Coordinator PSC
ICT Coordinator                                     Vacant
Resource Center Coordinator                         PSC
Safety and Security Coordinator                     PSC




Final Program Evaluation Report: Peace Corps/Dominican Republic                      23
                       LIST OF RECOMMENDATIONS
We recommend:

1. That the PTO ensure APCDs comply with the new site selection procedures.

2. That the post invite the ENTRENA training director to staff meetings to augment
   collaboration and maximize training improvement opportunities.

3. That the post assess IST Volunteer guidance to ensure counterpart participation
   during IST.

4. That the post a) define each Volunteer housing standard in order that the presence or
   absence of each may be accurately assessed, and b) include all housing policy
   standards in the housing checklist.

5. That the country director require APCDs to review the accuracy and completeness of
   the most critical sections of site locator forms.

6. That the post strengthen its training program so that all Volunteers accurately
   complete trimester reports in their new format.

7. That the region establish and disseminate standard guidance and training for use by
   post staff and Volunteers to ensure that performance data is consistently collected and
   reported.




Final Program Evaluation Report: Peace Corps/Dominican Republic                        24
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
MEMORANDUM

To:           Kathy Buller, Inspector General

From:         Allene Zanger, Regional Director, Inter-America and Pacific

CC:           John Dimos, Chief Compliance Officer

Date:         December 9, 2008

Subject:      Preliminary Program Evaluation of Peace Corps/Dominican Republic

Enclosed please find the Region’s response to the recommendations made by the
Inspector General for Peace Corps/Dominican Republic, as outlined in the Preliminary
Program Evaluation of Peace Corps/Dominican Republic.

The Region concurs with 7 of 7 recommendations.
1. That the PTO ensure APCDs comply with the new site selection
procedures.
 
Concur. Post has begun the process of revising their existing site selection
procedures. These updated procedures will be completed and fully implemented
by the end of the next site selection cycle. See Attachment 1.

Date of Completion: May, 2009  
 
 
2. That the post invite the ENTRENA training director to staff meetings to
augment collaboration and maximize training improvement opportunities. 
 
Concur. Post invited the ENTRENA Training Director to the October Senior Staff
meetings and to all subsequent Senior Staff and All Staff meetings. She
attended both the All Staff Meeting and Program and Training meeting, and will
continue to do so. See Attachment 2.

Date of Completion: October, 2008   
 
 
3. That the post assess IST Volunteer guidance to ensure counterpart
participation during IST.

Concur. Post will work with Volunteers, APCDs, and Regional PCVLs and
Sector PCVLs to develop strategies to increase and strengthen counterpart and
project partner participation during ISTs. Although a large majority of the project
partners have attended the three-month IST, participation in all other recurring
IST events has been constrained due to budget limitations, including Peace
Corps policies regarding the use of appropriated funds for counterpart training.
When funding is available from sources such as Small Project Assistance
Program/Field Assistance Requests, The Center for Field Assistance, PEPFAR,
Peace Corps Partnership and others, Project Partners are always in attendance.
See Attachment 3.
 
Date of Completion: February, 2009 and ongoing.
 
 
4. That the post a) define each Volunteer housing standard in order that the
presence or absence of each may be accurately assessed, and b) include
all housing policy standards in the housing checklist.

Concur. When the OIG team visited, PCDR had just replaced an under-
performing Safety and Security Coordinator (SSC). The new SSC has
aggressively begun working to upgrade the housing policy, housing standards,
and the housing checklist.
PCDR will submit a UFR to cover the costs associated with the purchase of door
and window locks (security hardware) which will be given to all Volunteers for
installation—PCVs will be reimbursed for all installation costs. Post has
completed, and submitted to the Regional SSO for review, the first draft of the
policy and checklist. See Attachment 4.

Date of Completion: February, 2009 (implementation) and ongoing.


5. That the country director require APCDs to review the accuracy and
completeness of the most critical sections of site locator forms.

Concur. Post is implementing revised procedures to check and update the
Emergency Locator Forms (ELFs). Responsibility for maintaining the ELFs has
been transferred to the SSC; checks for accuracy and completeness of the ELFs
will be made by the Volunteers, PCVLs, and APCDs. Regular report updates will
be given to the Country Director.

Date of Completion: January, 2009 and ongoing.
APPENDIX B

                               OIG COMMENTS

Management concurred with all seven recommendations. We closed recommendation
numbers 2 and 4. Recommendation numbers 1, 3, 5, 6 and 7 remain open pending
confirmation from the chief compliance officer that the following has been received:

   •   For recommendation number 1, documentation that new site selection procedures
       have been implemented.

   •   For recommendation number 3, a copy of the post’s strategies to increase and
       strengthen counterpart participation during Volunteers’ first in-service training.

   •   For recommendation number 5, a copy of the safety and security coordinator’s
       (SSC) scope of work, including the SSC’s role in reviewing the completeness and
       accuracy of site locator forms.

   •   For recommendation number 6, documentation that the post is training Volunteers
       on how to complete trimester reports.

   •   For recommendation number 7, a copy of the region’s training curriculum and
       standard guidance to posts regarding the collecting and reporting of Volunteer
       performance data.


In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted,
we may conduct a follow-up review to confirm that action has been taken and to evaluate
the impact.
APPENDIX C


              PROGRAM EVALUATION COMPLETION
                    AND OIG CONTACT


PROGRAM EVALUATION COMPLETION
This program evaluation was conducted under the direction of Shelley Elbert, Assistant
Inspector General for Evaluations, and by Evaluators Reuben Marshall, Tom O’Connor,
and April Thompson. Additional contributions were made by Susan Gasper and Heather
Robinson.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us improve our
products, please e-mail Shelley Elbert, Assistant Inspector General for Evaluations and
Inspections, at selbert@peacecorps.gov , or call (202) 692-2904.
        REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915

Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
